Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Nursing Home Medical Directors
             Survey




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                     FEBRUARY 2003
                      OEI-06-99-00300
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                       EXECUTIVE SUMMARY


OBJECTIVE

         To identify the functions reported by medical directors that are expected of them by nursing
         homes, their expenditure of time meeting these functions, and their self-reported credential
         status.


BACKGROUND

         Medical directors are required by the Code of Federal Regulations, Title 42 §483.75(i)(2), to
         be responsible for the implementation of resident care policies and coordination of
         medical care services in the facility. Further, the Omnibus Budget Reconciliation Act of
         1987 (OBRA 1987) and subsequent policies suggest, but do not clearly state, that medical
         directors should be utilized in the direct management and identification of potential quality
         improvement problems and plans, and should ensure implementation of existing law and
         regulations. The Centers for Medicare & Medicaid Services (CMS) has ultimate responsibility
         for ensuring implementation of OBRA 1987, but it is not always clear which individual(s) in the
         nursing home actually, and ultimately, must ensure that patients receive the necessary care – the
         medical director, the attending physician, the administrator, or the nursing staff. From the 191
         sampled nursing homes, 119 responding medical directors identified many specific functions as
         expected or should be expected of them by the nursing home, in the four key areas of quality
         improvement, patient services, residents’ rights, and administration.


SURVEY RESPONSE

Responding medical directors report many functions in four key areas they are
frequently expected to perform

         Quality Improvement – Medical directors report that quality improvement activities are
         important. These activities focus on the broader aspects of quality within the facility, including
         their review and revision of existing medical and clinical policies; encouragement of quality of
         care, regardless of patient case mix; and review and analysis of quality indicators for potential
         areas of concern. By comparison, quality improvement functions that are more centered on the
         individual patient are reported less often by medical directors as expected by the nursing
         homes. Committee involvement is one way that medical directors contribute to quality
         improvement in the nursing home. Eighty-seven percent of responding medical directors report
         participation on nursing home committees for improving patient care.


                                               __________

Nursing Home Medical Directors                      i                                        OEI-06-99-00300
         Patient Services – At 92 percent, intervening with attending physicians about patient care
         concerns is the most frequently mentioned patient service expected of responding medical
         directors by the sampled nursing homes. Other functions frequently reported by medical
         directors are their review of consultant pharmacists’ drug regimen reports (90 percent),
         provision of ongoing medical advice and guidance to nurses (86 percent), and routine meeting
         with nurses to discuss patient care issues (78 percent). About half of the responding medical
         directors are not expected by the nursing homes to provide direct care to patients.

         Residents’ Rights – Ninety-six percent of responding medical directors report that the
         promotion of residents' rights is an expected leadership role for them. However, 60 to 69
         percent of responding medical directors report that ensuring residents’ rights is expected of
         them by the nursing homes. For example, they are expected to ensure: the appropriateness of
         a patient’s drug regimen (69 percent), a patient’s end-of-life decisions are honored (68
         percent), and both patients’ involvement in their own care planning and their right to refuse
         medication, when mentally competent to do so (60 percent).

         Administration – Generally, medical directors report that their administrative functions involve
         advising on survey regulatory matters (94 percent), providing liaison with facility staff (84
         percent), and keeping current on regulatory and medical treatment changes (83 percent). Few
         medical directors report participation in the training of nurses and nurse aides, as well as
         participation in the assurance of patients’ safety in the physical environment. Few also report
         their participation in verifying that their facility’s storage, preparation, and service of food are
         sanitary.

Medical directors report some functions they are not frequently expected to
perform, nor do they often believe they should; for others, they indicate a more
diverse opinion

         Within patient services, residents’ rights, and administration, medical directors report some
         functions that are infrequently expected of them by the nursing homes. For some of these
         functions, medical directors also seldom report that they should perform them. For other
         functions in these broad categories, the frequency at which they report that they should perform
         them is higher and indicates a diversity of opinion about what their duties should include.

Eighty-six percent of responding medical directors report spending
8 hours or less per week at the sampled facilities

         Sixty-two percent of responding medical directors report visiting the facility one time per week
         or less often. Eighty-six percent of them spend 8 hours or less per week at the sampled facility.
         Seventy percent of medical directors report that 1 to 10 percent of their overall medical
         practice is devoted to their medical director role.


                                                __________

Nursing Home Medical Directors                       ii                                        OEI-06-99-00300
Responding medical directors report they are professionally trained

         All responding medical directors report that they have professional medical training. Nearly all
         report specialization in either family practice (47 percent) or internal medicine (44 percent).
         Almost half of them report specialization in caring for elderly patients, either as geriatric
         physicians (21 percent) or by their obtaining a “certificate of added qualifications” in geriatrics
         (29 percent). Many medical directors also enhance their professional understanding of the
         elderly through additional training or participation in professional organizations. In fact, while
         regulations do not specify that medical directors should be licensed to practice, they are
         required to be physicians.


SUMMARY

         This report identifies the functions for which 119 responding medical directors in 7 purposively-
         sampled states report as being expected of them by the nursing homes. The responding
         medical directors also identified those functions for which they report that they should have
         responsibility. Identified functions fall within four categories: quality improvement, patient
         services, residents’ rights, and administration. These functions relate directly to their regulatory
         responsibility for implementation of resident-care policies and coordination of medical services
         in the facility. The reported functions clearly indicate a physician-related role for them. In fact,
         while regulations do not specify that medical directors should be licensed to practice, they are
         required to be physicians.

         Beyond the few functions within each of the four categories, for which 80 to 94 percent of the
         responding medical directors report are expected by the sampled nursing homes (Appendix C),
         there are many more functions less frequently reported by medical directors. These are
         functions that medical directors report they are not expected to perform, nor do they report
         they should; for others, they indicate a diversity of opinion. Thus, much of what medical
         directors are expected to do by the nursing homes begins to vary markedly. Responding
         medical directors (86 percent) also report spending 8 hours or less per week performing the
         responsibilities expected of them.

         The CMS routinely works directly with representatives of the nursing home industry, patient
         advocacy organizations, and physician-related associations. We believe that CMS will find the
         presented information useful as it continues to work with them in establishing, clarifying, and
         enhancing the medical director’s role.




                                                __________

Nursing Home Medical Directors                      iii                                        OEI-06-99-00300
                          TABLE                          OF               CONTENTS


                                                                                                                                    PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


SURVEY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Responding medical directors report many functions in four key areas
          they are frequently expected to perform . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                     Quality Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     Patient Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     Residents' Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                     Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Medical directors report some functions they are not expected to perform, nor do they report

          they should; for others, they indicate a diversity of opinion . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Eighty-six percent of responding medical directors report spending 8 hours or less per week at

          the sampled facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          Responding medical directors report that they are professionally trained . . . . . . . . . . . . . . . . 18


SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          A: Summary of Physician-Related Survey and Certification
             Nursing Home Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

          B: Seven Sample States - Selected Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

          C: Medical Directors’ Self-reported Functions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                                 INTRODUCTION


OBJECTIVE

         To identify the functions reported by medical directors that are expected of them by nursing
         homes, their expenditure of time meeting these functions, and their self-reported credential
         status.


BACKGROUND

         The Omnibus Budget Reconciliation Act of 1987 (OBRA 1987)1 requires all nursing homes,
         called “facilities,” while participating in the Medicare and Medicaid programs to meet a
         common set of certification standards, to assess the needs of patients, and to help those patients
         maintain and achieve their highest practical level of physical, mental, and psychosocial well-
         being. The OBRA 1987 and subsequent policies require that all Medicare and Medicaid
         certified nursing homes retain a physician as medical director. These medical directors are
         required by the Code of Federal Regulations, Title 42 §483.75(i)(2), to be responsible for the
         implementation of resident-care policies and coordination of medical care services in the
         facility. This and other regulations (see Appendix A) suggest, but do not actually specify, that
         medical directors should be utilized in the direct management and identification of potential
         quality improvement problems and plans, and to ensure implementation of existing law and
         regulations.

         The Centers for Medicare & Medicaid Services (CMS) has ultimate responsibility for ensuring
         that OBRA 1987 requirements are implemented by states and nursing homes. The nursing
         home (facility) has the principal responsibility, assigned by most regulations, to implement or
         ensure implementation of those same reforms for the patients in their care. Yet, regulations
         provide no clear indication of which specific individual(s) in the nursing home will perform or
         ensure that patients receive the necessary care. Possible individuals include:

         C	 The medical director, whose role is largely undefined by CMS, except in the broadest
            sense of resident care and clinical policies and coordination of medical care (see details on
            page 2). 2 Additionally, while the medical director is required to be a physician,3 there is no
            regulation specifying that the physician should be licensed to practice;
         C	 The attending physician, who certifies a patient’s need for nursing home care and
            routinely provides the clinical response to a patient’s needs and addresses patient concerns
            identified by nursing staff 4;
         C	 The nursing staff, including the director of nursing, who have no direct regulatory
            requirements, except as their performance relates to their involvement in clinical care; and
                                               __________

Nursing Home Medical Directors                      1                                        OEI-06-99-00300
         C	 The administrator, hired by or is the owner of the facility, generally has little, if any medical
            background; expected to oversee all administrative and management activities associated
            with patient care and safety within the nursing home.

         While the survey process requirements have many sections relating to functions, which appear
         to be specific to physicians’ performance (see Appendix A), the CMS State Operations
         Manual (SOM), and the CMS Interpretive Guidelines (SOM, Appendix PP) explicitly
         address three areas for the role of the medical director:

         1)	 Drug regimen review5 “encourages facilities to share pharmacists’ drug reviews with the
             medical director”;
         2) Medical director6 states that medical directors, who are retained by the facility, must
             C	 implement resident care policies regarding admissions, transfers and discharges;
                 attending physician privileges and practices; responsibilities of non-physician healthcare
                 workers; accidents and incidents; ancillary services such as laboratory, radiology, and
                 pharmacy; use of medications; use and release of clinical information; and overall
                 quality of care7;
             C	 ensure establishment and implementation of all resident clinical care policies and
                 assurance that the nursing home is providing required appropriate care by
                 monitoring and implementing policies for care, oversight, and supervision related to
                 overseeing the overall adequacy of clinical care of patients; and
             C coordinate medical care in the facility.
         3)	 Quality assessment and assurance8 notes that the medical director may be designated by the
             nursing facility to serve as the required physician on the quality assurance committee.

         No regulatory guidance exists on how medical directors are to accomplish these charges, nor is
         there any specific requirement for a medical director’s direct, ongoing clinical interaction, or any
         related quality-specific activities, with patients or nursing home staff. The CMS and the
         General Accounting Office have each raised serious concerns for patients' care and well-being,
         principally resulting from their studies of nursing home responsibilities, processes, and patient
         care.9


METHODOLOGY

Scope

         Given the lack of specificity in the law, regulations, and policy governing functions to be
         performed by medical directors, this study seeks to describe nursing homes’ expectations. The
         range of possible functions and responsibilities of medical directors was based on the
         identification of potential roles that medical directors may have in a nursing home, according to
         the medical directors themselves, nursing home administrators, directors of
                                                __________

Nursing Home Medical Directors                       2                                         OEI-06-99-00300
         nursing, and attending physicians. Functions fell into the following categories: patient services,
         quality assurance and improvement, residents’ rights, administration and management, training
         and education, and ensuring a safe physical environment.

         Finally, because we used a purposive sample, we have not projected our findings to the nation.

Study and Survey Development

         We consulted at length with several public and private organizations associated with nursing
         home care.10 Each provided their professional perspectives on the inspection issues and
         methodologies, as well as advice on obtaining sample information about specific types of
         nursing home staff. In addition, the American Medical Directors Association (AMDA), during
         their annual training conference for medical director certification, provided our staff with basic
         training concerning the medical director’s role. We also met with medical directors in nursing
         homes and research experts to gain their perspectives of both the many facets of the medical
         director's job and our planned methodology for this study.

Sample Selection

         States Based on recommendations from knowledgeable parties11 and research conducted
         during the study-development phase, we purposively selected California, Maine, New York,
         Ohio, South Dakota, Tennessee, and Texas as the sample states. Together, these states
         account for approximately 29 percent of certified nursing homes, 37 percent of Medicaid
         expenditures for institutional long-term care, and 30 percent of all certified beds (see Appendix
         B). Further, these seven states illustrate a variety of factors that may impact the role of a
         nursing home’s medical director:

         C High numbers of nursing home chains (California, Texas),
         C Large nursing home patient populations (California, Ohio, New York, Texas),
         C	 Less populous and more rural states with approximately 13 percent (+/-) Medicare and
            Medicaid enrollment as a percent of population (Maine, Tennessee),
         C Low percentages of Medicare physicians in rural states (South Dakota), and
         C States in which less than 75 percent of physicians and other practitioners participate in
            Medicare Part B (South Dakota).

         Nursing Homes For each sample state, the number of nursing homes selected was based on
         the state’s relative proportion of certified nursing home beds to the national number of certified
         nursing home beds. We believe that this is a more accurate indicator of each state’s relative
         nursing home size than the use of overall state population (see Appendix B). We also limited
         the number of nursing homes in each sampled state to a maximum of 50 and a minimum of 5.
         We randomly selected the predetermined number of nursing


                                               __________

Nursing Home Medical Directors                      3                                         OEI-06-99-00300
         homes per state for a total of 205 certified nursing homes -- California (50), Maine (7), New
         York (45), Ohio (37), South Dakota (5), Tennessee (15), and Texas (46).

         Of the 205 sampled nursing homes, we dropped 14 because their survey responses indicated
         that they had been incorrectly sampled, i.e., the CMS database identified the nursing home as
         free-standing, but the administrator or medical director reported the nursing home was hospital-
         based12 or the facility had closed. As a result, our sample decreased to 191 nursing homes.

         Individual Respondents We surveyed each of the sampled 191 nursing homes’ medical
         directors. For about one-fourth of the 191 nursing homes (45 total across 7 States), we also
         surveyed nursing homes’ administrators, directors of nursing, and attending physicians. These
         three individuals, in each of the sampled nursing homes, were chosen as those most likely to
         interact directly with the medical director at various points in the process of caring for patients.

Data Collection

         Mail Survey and Response Rates Between the summer and winter of 2000, we collected
         data from respondents through a structured mail survey. Of the possible 326 respondents (191
         medical directors and 45 each from administrators, directors of nursing, and attending
         physicians), a total of 205 respondents (63 percent) returned usable surveys.13 By respondent
         type, this included 119 medical directors (62 percent), 31 administrators (69 percent), 33
         directors of nursing (73 percent), and 22 attending physicians (49 percent).

         We divided the functions performed by responding medical directors into four broad categories:
         quality improvement, residents' rights, patient services, and administration (which included
         training and education, as well as physical environment and employee health). Within each
         category were questions on specific functions that may be part of the medical director’s role.
         For example, under the category “residents’ rights” is the specific function “verify patients have
         a drug regimen free from unnecessary drugs.”

         For specific functions, we asked respondents for their perceptions about the medical director’s
         role from three perspectives:

         1)	 Expectation of the nursing home (e.g., required by the nursing home) that the function is the
             medical director’s responsibility in that nursing home,14
         2) Should the function be the responsibility of the medical director, and
         3) Authority to the medical director from the nursing home to perform the function.




                                                __________

Nursing Home Medical Directors                       4                                          OEI-06-99-00300
         We also asked respondents about the importance of a medical director’s leadership in several
         key areas and other questions intended to provide supplemental information about the medical
         director’s role and activities.

Data Analysis

         Using data from the completed surveys, we performed frequencies, cross-tabulations, and
         content analysis. Findings presented focus primarily on the responses from the medical
         directors. Data from the other respondent types, i.e., administrator, attending physician, and
         director of nursing, were used largely to discern marked differences between them and the
         responding medical directors and to provide supplemental information from another
         perspective. Occasionally, we reference possible functions that could be included in the
         medical director’s job, but were chosen less frequently by respondents.

Non-Respondent Analysis

         To detect non-respondent bias, we used our data to test for differences between responding
         and non-responding medical directors. We were limited to comparing characteristics that were
         available from our file of sampled nursing homes. Since the responses by medical directors
         were anonymous, we could not test for differences between responding and non-responding
         medical directors.15 Factors for which we did test include state characteristics, the type of
         nursing facility (profit, non-profit, ownership), and the size of the facility (large, medium, small).
         No significant differences were found for any of these factors. In addition, we followed up with
         non-respondents by telephone, and the majority of them stated that the primary reason for not
         responding to the survey was lack of time.

         This study was conducted in accordance with the Quality Standards for Inspections issued by
         the President’s Council on Integrity and Efficiency.




                                                __________

Nursing Home Medical Directors                       5                                           OEI-06-99-00300
                            SURVEY RESPONSE


         Survey responses from 119 nursing home medical directors found that they are expected by
         their nursing homes, and report they should be expected, to perform many specific functions in
         four key areas – quality improvement, patient services, residents’ rights, and administration.
         Functions of quality improvement and patient services are most frequently reported by medical
         directors as expected of them and most strongly seen as important by the medical directors.
         Examples of quality improvement include reviewing and revising existing medical and clinical
         policies, and encouraging quality care. Examples of patient services are intervening with
         attending physicians, when necessary, reviewing consultant pharmacists’ reports, and interacting
         with nurses. Functions associated with residents’ rights and administration are reported less
         often as expected by nursing homes and less often perceived as important. Medical directors
         report that some functions pertaining to staffing, appropriate patient care, training, and
         residents’ rights are infrequently expected of them by their nursing homes and may or may not
         be reported as functions which they should perform. Eighty-six percent of medical directors
         report spending 8 hours or less per week in the facility; 70 percent report spending less than 10
         percent of their overall professional practice on their medical director responsibilities. Finally,
         regulations require medical directors to be physicians; 92 percent report they are currently
         licensed, and all say they are professionally trained.



Responding Medical Directors Report Many Functions In Four Key Areas They
Are Frequently Expected To Perform

         According to the responding medical directors, nursing homes expect them to perform many
         functions falling within four broad categories: 1) quality improvement, 2) patient services, 3)
         residents’ rights, and 4) administration, which includes training. The CMS survey process
         requirements and their Interpretive Guidelines have many sections relating to functions which
         appear to be specific to physicians performing in these four areas (Appendix A). For this
         study, medical directors reported those activities that nursing homes most often expect of them
         and those which medical directors most often report should be their responsibility. In general,
         medical directors report that they have the authority from the nursing homes to perform many of
         the functions (see Appendix C).




                                               __________

Nursing Home Medical Directors                      6                                         OEI-06-99-00300
Quality Improvement

Medical directors see quality improvement activities as important and focus on the
broader aspects of quality care

         Ninety-seven percent of responding medical directors report that their participation in the
         nursing home's quality improvement effort is important to their leadership role for establishing
         and maintaining quality patient care. Quality improvement in a nursing home can be as simple
         as ensuring conformance to state and federal requirements, or as complex as measuring the
         degree to which services meet professional standards. In this category, Table 1 shows the
         activities that medical directors report as expected by nursing homes, most of which the medical
         directors clearly agree should be their responsibility.

               Table 1: Quality Improvement Functions Most Frequently Identified by Medical Directors

                                                                         Nursing Homes Expect   Medical Directors
                         Specific and Related Functions                  of Medical Directors   Should Perform

          Review and revise existing medical and clinical                       90%                  97%
          policies

          Encourage quality of care, regardless of patient case                 88%                  92%
          mix

          Review and analyze quality indicators for potential                   86%                  91%
          areas of concern

          Quality improvement planning, implementing, and/or                    84%                  93%
          follow-up

          Development of medical care policies and                              81%                  92%
          procedures

          Confirm patient’s problems identified by unit nurses                  73%                  83%
          are adequately addressed

          Serve as patients’ medical advocate                                   64%                  81%

          Source: OIG survey responses from nursing home medical directors



         Most specific to medical directors, as specified by both regulation and the CMS Interpretive
         Guidelines, is a charge to implement resident care policies and coordinate medical care in the
         facility. One of the functions specifically required of medical directors is reviewing and
         revising existing medical and clinical policies. At 90 percent, it is also the function in this
         category that most responding medical directors reported as expected by the nursing homes.
         Examples of such medical and clinical policies are procedures for how staff should handle
         patient accidents or when the use of restraints is appropriate. While not all medical directors
         report that their nursing homes expect them to review and revise existing medical and clinical
         policies, 97 percent report that it should be their responsibility. Additionally, 70 percent report
         that reviewing and revising existing care policies or developing them is important to their
         leadership role.


                                                      __________

Nursing Home Medical Directors                             7                                            OEI-06-99-00300
         Encouraging quality of care, regardless of the patient case mix, is reported by 88 percent
         of medical directors as expected by the nursing home and by 92 percent as important to their
         role. This means that overall decisions related to patients' health-care needs should be
         determined fairly and equally, regardless of the severity of illness and the resultant services.
         This function is closely followed by others specifically related to general quality improvements.
         Examples of these other functions include medical directors conducting chart reviews on an
         ongoing basis, reviewing status reports from staff, conducting patient rounds, and attending
         quality assurance and improvement meetings monthly.

         After the general quality improvement functions, responding medical directors report less often
         being expected by the nursing homes to perform quality functions that are more centered on the
         individual patient – patient’s problems identified by unit nurses are adequately addressed
         (73 percent) and serving as the patient’s medical advocate (64 percent). The latter refers to
         ensuring that the patient’s medical care needs are adequately addressed, even if the facility has
         concerns about the potential cost of such care. However, a mean of 82 percent of medical
         directors report that these are functions which should be their responsibility.

Eighty-seven percent of medical directors report that they participate on nursing
home committees for improving patient care

         In addition to the specific quality improvement functions assigned to them, 87 percent of
         responding medical directors report that they fulfil the facility’s expectation to have a physician
         on the facility’s Quality Improvement Committee. These medical directors meet at least
         quarterly with the committee; 3 percent report never attending. Eighty-five percent of medical
         directors report their nursing homes have Quality Improvement Committees which generally
         meet quarterly or more often. Established for ongoing quality improvement, these committees
         are comprised of different disciplines, which may include the medical director. The committees
         identify patient care issues which should be addressed and those requiring preventive measures,
         and they identify possible medical- care policies needing development.


Patient Services

Professional interactions with attending physicians, nursing staff and consultant
pharmacists on concerns with patient care are often expected of medical directors
by the nursing homes and are viewed as important to patient services

         For responding medical directors, patient services present many opportunities for leadership by
         directly influencing the provision of quality patient care. Given that they are charged by 42
         CFR §483.75(i)(2)(ii) to coordinate medical care in the facility, responding medical directors
         report that application of geriatric principles (96 percent)




                                               __________

Nursing Home Medical Directors                      8                                         OEI-06-99-00300
         and patient care and consultation (92 percent) are important aspects of a medical director's
         leadership responsibility. In addition, 91 percent of responding medical directors indicate that
         they have a leadership responsibility to monitor attending physician performance.

         In that vein, intervening with attending physicians about patient care concerns, at 92
         percent, is the most frequently mentioned patient service expected of responding medical
         directors by the nursing homes; 97 percent of responding medical directors echo its importance
         by reporting that it should be their responsibility. Further, 68 percent report having nursing
         home responsibility to monitor for appropriate patient care by attending physicians, and 85
         percent report that they should have this responsibility from their nursing homes. Although
         medical directors and nursing homes do not have direct regulatory responsibility for the
         performance of attending physicians, medical directors may influence an attending physician’s
         delivery of medical care. Reflecting this potential opportunity, 69 percent of medical directors
         report they have at least moderate influence upon the quality of medical care provided by
         attending physicians in their nursing homes; 54 percent of responding attending physicians
         report that medical directors have at least minor influence on their performance.

                   Table 2: Patient Services Functions Most Frequently Identified by Medical Directors

                                                                             Nursing Homes Expect of   Medical Directors
                           Specific and Related Functions                       Medical Directors      Should Perform

          Intervene with attending physician when concerns are                        92%                   97%
          raised about his/her patient's care

          Review consultant pharmacists’ drug regimen reports                         90%                   93%

          Interact with Nurses:
            Provide ongoing medical advice and guidance to                            86%                   94%
          nurses                                                                      78%                   88%
            Meet routinely with nurses to discuss patient care
          issues

          Perform attending physician duties                                          72%                   83%

          Participate in the planning of patient care by ensuring the                 69%                   83%
          appropriateness of services and treatments

          Monitor for appropriate patient care by attending                           68%                   85%
          physicians

          Source: OIG survey responses from nursing home medical directors



         Ninety percent of responding medical directors are expected by their nursing homes to review
         drug regimen reports, in their role as medical director. This expectation is in keeping with the
         Interpretative Guidelines, Tag F429, which encourages facilities to share consultant
         pharmacists’ drug reviews with their medical directors. These reviews identify concerns about
         medications ordered for a patients' diagnoses and possible problems, such as drug interactions
         or the need for dosage adjustments. Regulations require that drug reviews occur monthly for all
         patients, and for consultant pharmacists to report any irregularities to the attending physician
         and the director of nursing.

                                                      __________

Nursing Home Medical Directors                             9                                             OEI-06-99-00300
         Regulations do not require any direct involvement between medical directors and consultant
         pharmacists. However, 65 percent of medical directors report meeting with consultant
         pharmacists quarterly.

         Interacting with nurses on patient care and providing on-going medical advice are also
         reported by responding medical directors as functions expected of them by the nursing homes.
         Ninety-seven percent of responding directors of nursing indicate that they routinely have
         conversations with their medical directors, typically about patient care issues (94 percent) and
         problem patients (91 percent). Such interactions may provide opportunities for medical
         directors to influence the quality of patient care throughout the nursing home, such as the need
         for a change in a patient's medications, or concern that a patient's symptoms are not typical of
         an identified diagnosis.

Residents’ Rights

Sixty to sixty-nine percent of responding medical directors report that ensuring
residents’ rights, such as appropriate drug regimens, honoring end-of-life
decisions, and ensuring treatment choices, is expected of them by the nursing
homes

         The OBRA 1987 created a bill of rights for nursing home residents,16 which expands the
         individual rights they have outside nursing homes, e.g., privacy, religion, and speech, to include
         activities which may occur in the nursing home. These include such rights as having privacy,
         receiving appropriate medications, refusing treatment, and being consulted about their own
         care. Regulations for OBRA 1987 are intended to ensure that nursing home staff and
         physicians actively recognize the cognitive patient's autonomy and all patients' right to continued
         dignity.17

         Ninety-six percent of responding medical directors report that the promotion of residents' rights
         is an expected leadership role for them. Yet, of the four broad categories of functions that
         medical directors cited, ensuring residents’ rights are reported less often as expected by the
         nursing homes. Also, the percentage of medical directors concurring that ensuring residents’
         rights should be their responsibility is slightly higher compared to what is expected of them by
         the nursing homes (Table 3).




                                               __________

Nursing Home Medical Directors                     10                                         OEI-06-99-00300
                  Table 3: Residents’ Rights Functions Most Frequently Identified by Medical Directors

                                                                             Nursing Homes Expect of   Medical Directors
                           Specific and Related Functions                       Medical Directors      Should Perform

          Verify appropriateness of a patient’s drug regimen,
          ensure that drugs are:
              -- appropriately prescribed                                             69%                   80%
              -- necessary                                                            69%                   75%

          Ensure patients' end of life decisions are honored                          69%                   80%

          Verify appropriate medical response to drug regimen                         68%                   80%
          review concerns

          Confirm appropriate restraint usage                                         65%                   77%

          Ensure cognitive patients' rights to refuse medications                     60%                   76%

          Support patients' direct involvement in care planning, if                   60%                   70%
          mentally able

          Source: OIG survey responses from nursing home medical directors




         The right to an appropriate drug regimen has become more important over the past several
         years. Significant research continues to note concern for the numbers of nursing home patients
         having drug regimens, which included unnecessary and/or inappropriate drugs.18 One major
         result has been the requirement that nursing home patients receive a drug regimen review at
         least once a month by a licensed pharmacist.19 Through record reviews and interactions with
         staff, medical directors can confirm and correct inappropriate restraint of patients for
         discipline or convenience,20 through the use of prescribed medications or physical restraints.

         Consultant pharmacists are required by regulation to report concerns to the attending physician
         and the director of nursing.21 However, there is no regulation or guidance indicating that the
         medical director or attending physician should be the one to respond to a consultant
         pharmacist's concerns or to verify that actions are taken to ensure recommended changes in a
         patient's drug regimen.22 Yet, 68 percent of medical directors report that, in their role as
         medical directors, they are expected by their nursing homes to verify appropriate medical
         response to drug regimen review concerns, and 80 percent agree that they should have this
         responsibility. Additionally, 74 percent of responding medical directors report that they should
         have responsibility to develop indicators for physician quality assurance in drug prescribing; 51
         percent of medical directors indicate that they currently have this responsibility.

         Honoring patients' end of life decisions is as frequently a reported nursing home responsibility
         of the medical director as is their ensuring a patient’s drug regimen. Few decisions are more
         personally important than when directing what treatments are or are not wanted. Eighty-nine
         percent of responding medical directors indicate that they




                                                      __________

Nursing Home Medical Directors                            11                                             OEI-06-99-00300
         attempt to ensure that facilities have provided patients or their families with specific information
         about end-of-life issues, including the possibility of hospice care.

         Another resident's right discussed directly in nursing home regulations23 is having direct
         involvement in care planning for themselves and to make independent choices, while able.24
         This right is indirectly suggested by other federal laws established to ensure that patients are
         informed about this right.25 Yet again, no regulation clearly indicates which “individual” is
         responsible. Sixty percent of responding medical directors report that it is expected of them by
         the nursing home, and 70 percent say that it should be their responsibility.

Administration

The responding medical directors report that their administrative functions
include advising on regulatory matters, providing liaison with facility staffs, and
promoting employee health

         While the regulations are not explicit on the medical director's responsibilities in this category,
         many responding medical directors indicate three administrative functions as important to their
         leadership role: expanding knowledge of regulatory, legal, economic, and social factors
         affecting care (89 percent), participating in education or training for nurses (83 percent), and
         representing the facility in the community (78 percent).

         Responding medical directors also report that they have a role in operational administration
         beyond their involvement in delivery of care and services to patients (Table 4).

                    Table 4: Administrative Functions Most Frequently Identified by Medical Directors

                                                                             Nursing Homes Expect of   Medical Directors
                           Specific and Related Functions                       Medical Directors      Should Perform

          Provide medical expertise for facility when necessary to                    94%                   96%
          respond to regulatory agency survey concerns

          Serve as liaison between medical staff, nursing staff,                      84%                   88%
          and administration

          Keep current with regulatory and medical treatment                         83%                    92%
          changes

          Promote employee health                                                     72%                   78%

          Source: OIG survey responses from nursing home medical directors




         By providing medical expertise to survey concerns, medical directors may have a role in
         helping the facility anticipate and resolve problems that later may be detected by




                                                      __________
Nursing Home Medical Directors                            12                                             OEI-06-99-00300
         regulatory agency surveys.26 Typically, about one-half to two-thirds of responding medical
         directors participate in specific aspects of the survey process. For example, 

         45 percent report attending exit interviews between the administrator and surveyors. Further,

         47 percent assist in writing correction plans for identified survey deficiencies, while 64 percent

         report implementing those correction plans. Fifty-two percent of responding medical directors

         report conducting followup activities to ensure implementation of correction activities. 


         Acting as a liaison between medical staff, nursing staff, and administration allows medical

         directors to ensure assimilation of his/her quality care expectations and to ensure that other

         important quality care issues are addressed timely. Staying current with regulatory and

         treatment changes aids in the identification of new techniques and medications, techniques

         determined to be potentially detrimental, or improved treatments for certain diagnoses. For

         example, recent literature indicates that while side rails on patients’ beds were once acceptable

         practices, they are now considered potentially dangerous for strangulation27 and that thyroid

         testing may identify a reason for a patient’s lack of mental clarity.28




Medical Directors Report Some Functions They Are Not Frequently Expected
To Perform, Nor Do They Often Report They Should; For Others, They Indicate
A More Diverse Opinion

         Responses from medical directors showed specific functions within three of the four broad
         functional categories, i.e., patient services, residents’ rights, and administration (includes training
         and physical environment), that are infrequently expected of them by the nursing homes. For
         some of these specific functions, medical directors also seldom reported they should perform
         them. For other functions in the broad categories, the frequency at which they report they
         should perform them is higher and indicates a diversity of opinion about what their duties should
         include.

         In general, however, as mentioned earlier, the majority of medical directors have indicated they
         do have an important leadership role related to the general categories of patient services,
         residents’ rights, and administration. Examples are :

         C   Patient Services – monitoring attending physician performance (91%) and staffing (79%),
         C   Residents’ Rights – the promotion of residents' rights (96%), and
         C   Administration – participation in education or training for nurses (83%) and expanding
             knowledge of regulatory, legal, economic, and social factors affecting care (80%)




                                                 __________
Nursing Home Medical Directors                         13                                         OEI-06-99-00300
         Infrequently Reported Functions

         Table 5 shows some functions reported by medical directors that are both infrequently
         expected of them by the nursing homes, and infrequently mentioned as those that medical
         directors should perform. These functions fall predominantly into the broad category of patient
         services, with specific functions related to staffing and assuring appropriate care. Ensuring
         adequate lighting, which can protect patients from falls, and food safety under physical
         environment are also infrequently reported, as is the availability of appropriate admission
         records under residents’ rights.


                                 Table 5: Functions Infrequently Identified by Medical Directors


                                                                                Nursing Homes      Medical Directors
                                   Specific Functions                          Expect of Medical   Should Perform
                                                                                   Directors

         Patient Services - Staffing
              Ensure sufficient staffing required to meet all patients’              9%                 27%
              needs
              Ensure sufficient nursing coverage for all shifts                      3%                 13%
              Ensure sufficient nurse aide coverage for all shifts                   3%                 11%
         Patient Services - Appropriate Care
              Ensure sufficient, appropriate supplies for each patient’s             17%                25%
              needs
         Administration - Physical Environment                                       12%                22%
              Verify facility’s sanitary storage, preparation, and service
              of food
              Confirm facility’s adequate and comfortable lighting
              levels for patients                                                    11%                22%
         Residents’ Rights
              Ensure at admission availability of patients’ prior                    28%                39%
              medical records and advance directives

         Source: OIG survey responses from nursing home medical directors




         Reported Functions Showing Diversity of Opinion

         Table 6 presents some functions reported by medical directors that may be infrequently
         expected of them by the nursing homes, but are viewed by 40 to 60 percent of them as
         functions that they should perform in their role as medical directors. Thus, these functions
         indicate some diversity among medical directors’ responses as to which functions they should
         have responsibility. The functions fall predominantly into the broad categories of patient
         services, with specific functions related to direct patient care and appropriate care, and
         administration, with specific functions related to training and the environment.


                                                        __________
Nursing Home Medical Directors                              14                                       OEI-06-99-00300
         Patient Services – Direct Patient Care Many responding medical directors are not required
         either by regulation or their nursing home to provide direct patient care. In fact, 51 percent or
         less of medical directors reported that nursing homes expected them to be responsible for
         patient services involving direct patient contact, such as conducting patient rounds (51
         percent), managing patients' acute illnesses (50 percent), and participating in patient
         assessments to identify patients' needs (40 percent). However, for each of these functions, a
         higher percent of medical directors responded that they should perform these direct care
         functions.


                            Table 6: Medical Directors’ Responses Indicating Diversity of Opinion

                                                                               Nursing Homes      Medical Directors
                                       Specific Functions                     Expect of Medical   Should Perform
                                                                                 Directors

           Patient Services – Direct Care
                Perform patient rounds, which include direct contact                51%                62%
                with patients
                Actively treat or supervise the treatment of patients’              50%                54%
                acute illnesses
                Perform comprehensive patient assessments                           40%                48%
           Patient Services – Appropriate Care
                Monitor care performed by nurse aides                               33%                46%
                Develop performance indicators for attending                        31%                60%
                physicians
                Lead or chair the development of patient healthcare                 27%                47%
                plans for all patients
                Meet routinely with nurse aides to discuss patient care             24%                40%
           Administration (Training)
                Teach attending physicians about state and federal                  38%                57%
                regulations
                Educate healthcare staff on new policies and                        37%                51%
                procedures
                Promote training related to all staffs’ functional                  36%                45%
                requirements
           Administration (Environment)
                Promote a hazard-free environment                                   32%                46%

           Source: OIG survey responses from nursing home medical directors




         Even if medical directors are expected by the nursing home to be responsible for certain patient
         services, existing nursing home policies and procedures typically do not call for their direct
         involvement. For example, 98 percent of medical directors report the standard procedure for
         managing patients’ acute illnesses is to directly notify the patient’s attending physician first. It
         appears that typically the primary attending physician is notified and the medical director may
         be informed. However, if unable to reach the primary physician, the medical director is called
         for consultation. Also, if an emergency should occur, at the discretion of the nursing staff, the
         patient is transferred immediately to the emergency room for evaluation. Ninety-three percent
         of responding administrators report that it is not a facility policy for the nursing staff or
                                                            __________
Nursing Home Medical Directors                                  15                                  OEI-06-99-00300
         administration staff to consult with the medical director prior to patient transfers. According to
         68 percent of the medical directors, the primary deciding factor is whether there are physician’s
         orders for the transfer.

         Patient Care - Appropriate Services Forty to 60 percent of responding medical directors
         report that they should perform functions to ensure appropriate patient care. At the same time,
         medical directors infrequently report a nursing home’s expectation for ensuring appropriate care
         through monitoring or oversight of staff interacting directly with patients. Examples are
         developing performance indicators for attending physicians (31 percent), monitoring for
         appropriate care by nurse aides (33 percent) and meeting routinely with nurse aides to discuss
         patient care (24%).29 Leading the development of patient health-care plans for all patients
         (27%) is also a function infrequently expected of medical directors by the nursing homes.

         Administration - Training While 45 to 57 percent of medical directors indicate that they
         should provide training on various topics to attending physicians or nursing home staff, at 36
         percent to 38 percent, they less often report that their nursing homes expect them to provide
         this training. However, 50 percent of them believe that their administrators encourage them to
         provide in-service training or education to nursing staff. At the time of our survey, 46 percent
         of the medical directors report that nurses receive little training beyond that related to negative
         medication reactions to observe and report. Fewer medical directors report training nurses in
         important care areas, such as abuse definitions and reporting requirements (20 percent),
         residents' rights (26 percent), rehabilitation principles and therapies (31 percent), restraints (38
         percent), and providing care for patients at the end-of-life (40 percent).



Eighty-Six Percent Of Responding Medical Directors Report Spending
8 Hours Or Less Per Week At The Sampled Facilities

         Facility Visits and Hours For each sampled facility, most responding medical directors
         report that, in their medical director capacity, they devote a portion of their professional time to
         the facility. Table 7 indicates how often medical directors report visiting the facility and the
         number of hours they report spending there weekly. For example, 62 percent of responding
         medical directors visit the facility 1 time per week or less often. Eighty-six percent spend 8
         hours or less per week at the sampled facility. The amount of time spent on their nursing home
         role may allow them to complete work already scheduled and for which they are held directly
         accountable, such as certain paperwork related to patient care or participation in committees.

         Other Professional Obligations Seventy percent of responding medical directors report that
         less than 10 percent of their overall medical practice is devoted to their medical director role.
         Many medical directors balance their professional time at the facility with their other medical
         practice obligations inside or outside the nursing home. For example,




                                                __________
Nursing Home Medical Directors                        16                                        OEI-06-99-00300
         54 percent of medical directors report serving as an attending physician in the same facility
         where they serve as medical director. As attending physicians, these

                     Table 7: Time Medical Directors Devote to their Nursing Home Functions

                                 Activity as Medical Director                     Percent Responding

               How often they visit the facility:
                  daily                                                                  7%
                  2 to 3 times weekly                                                   23%
                  1 time weekly                                                         34%
                  1 time every 2 weeks                                                  10%
                  1 time monthly                                                        11%
                  1 time every 2 months                                                  7%
                  variable schedule                                                      9%

               Number of hours per week they spend in the facility:
                  less than 1 to 4 hours                                                72%
                  5 to 8 hours                                                          14%
                  9 to more than 15 hours                                               14%

               Part of their overall medical practice devoted to their
               medical director role:
                    1 to 10 percent                                                     70%
                    11 to 33 percent                                                    23%
                    more than 33 percent                                                 7%

               Source: OIG survey responses from nursing home medical directors



         medical directors report having an average of 47 patients in the nursing homes where they also
         serve as medical directors. Eighty-one percent of responding medical directors also report that
         they maintain a private practice outside the nursing facility, 54 percent report serving as a
         medical director for another facility, and 53 percent report serving as attending physician at
         another nursing home. They may also serve as a medical director at facilities other than nursing
         homes (21 percent) or teach in a college or university (20 percent).

Although not frequently present in the nursing home, medical directors may
communicate with nursing staff by telephone

         Telephone calls may serve as a primary method of communication between medical directors
         and nursing staff. Sixty-two percent of responding medical directors, 57 percent of attending
         physicians, and 82 percent of directors of nursing report not working evenings or weekends.
         For those times they are not in the facility, policies exist requiring their notification or attempted
         notification prior to certain medical decisions concerning patients. As a result, the nursing staff
         and nurse aides must monitor the care of patients during such times, and the nurses are
         expected to telephone the medical directors, attending physicians, and directors of nursing to
         notify them regarding necessary medical care. Research supports that much of the medical care
         delivered in nursing homes occurs as a result of telephone calls, except for the regulatory need
         for 60-day certification of


                                                       __________
Nursing Home Medical Directors                                  17                                     OEI-06-99-00300
         medical necessity. These calls serve as a method for managing communication between the
         staff, the physicians, and the directors of nursing.30


Responding Medical Directors Report That They Are Professionally Trained

         License To Practice While not required to be licensed, 92 percent of responding medical
         directors self-report that they are licensed as medical practitioners in their states. Regulations
         require medical directors to be physicians who will implement care policies and coordinate
         medical care in the facility.

         Medical Training and Experience All medical directors report that they have professional
         medical training. Consistent with other studies, medical directors report they typically come
         from a professional background of family practice (44 percent) or internal medicine (47
         percent), both considered helpful for their role.31 Of those who do not primarily specialize in
         either family practice or internal medicine, the majority of medical directors report receiving
         medical school residency training in internal medicine (30 percent) or family practice (24
         percent). Few responding medical directors report specialization in caring for elderly patients,
         as such is not provided in most medical schools. However, 22 percent report that they
         specialized in geriatrics in medical school, 30 percent report having a “certificate of added
         qualifications” in geriatrics, and 4 percent report completing a geriatric fellowship.

         Continuing Education Forty-eight percent of medical directors report that they complete
         continuing medical education credits yearly relating to geriatrics, gerontology, or long term care,
         but few indicate hours of clinical training in a long-term care setting or in geriatrics. However,
         39 percent of medical directors report having membership in their state-affiliated American
         Medical Director Association (AMDA), and 25 percent indicate that they are currently certified
         or have been recertified through AMDA's medical director training program. Two percent of
         respondents indicate that they are currently working towards certification through AMDA, and
         3 percent were formerly certified by AMDA, but report that their certification has lapsed.




                                                __________
Nursing Home Medical Directors                        18                                        OEI-06-99-00300
                                      SUMMARY


This report identifies the functions for which 119 responding medical directors in 7 purposively-sampled
states report as being expected of them by the nursing homes. The responding medical directors also
identified those functions for which they report they should have responsibility. Identified functions fall
within four categories: quality improvement, patient services, residents’ rights, and administration.
These functions relate directly to their regulatory responsibility for implementation of resident care
policies and coordination of medical services in the facility. The reported functions clearly indicate a
physician-related role for them. In fact, while regulations do not specify that medical directors should
be licensed to practice, they are required to be physicians.

Beyond the few functions within each of the four categories, for which 80 to 94 percent of the
responding medical directors report are expected by the sampled nursing homes (Appendix C), there
are many more functions less frequently reported by medical directors. These are functions medical
directors report that they are not expected to perform, nor do they report that they should; for others,
they indicate a diversity of opinion. Thus, much of what medical directors are expected to do by the
nursing homes begins to vary markedly. Responding medical directors (86 percent) also report
spending 8 hours or less per week performing the responsibilities expected of them.

The CMS routinely works directly with representatives of the nursing home industry, patient advocacy
organizations, and physician-related associations. We believe that CMS will find the presented
information useful as it continues to work with them in establishing, clarifying, and enhancing the medical
director’s role.




                                              __________
Nursing Home Medical Directors                      19                                       OEI-06-99-00300
                                        ENDNOTES

1.       Public Law 100-203 passed by Congress on December 22, 1987.

2.       Interpretative Guidelines, deficiency Tag F501, 42 CFR §483.75(i)-(ii).

3.       42 CFR §483.75(i)(1).

4.	      Attending physicians have no routine visit requirement, except as needed for continued
         certification for Medicare or Medicaid payment. The medical directors themselves appear to
         agree to some extent on the functions that they indicate are expected of them by the nursing
         homes and for which they also report believing that they should have responsibility. What
         constitutes a visit is largely undefined by any policy.

5.	      Interpretative Guidelines, deficiency Tag F429, 42 CFR §483.60, Pharmacy services, and by
         42 CFR §483.75(i)(2)(ii) stating that the medical director has responsibility for coordination of
         medical care.

6.       Interpretative Guidelines, deficiency Tag F501, 42 CFR §483.75(i)-(ii).

7.       Interpretative Guidelines, deficiency Tag F501, 42 CFR §483.75(i) guidelines, PP-192.

8.       Interpretative Guidelines, deficiency Tag F520, 42 CFR §483.75(o).

9.       Reports on nursing home issues by GAO include:
         C       Nursing Homes - Many Shortcomings Exist in Efforts to Protect Residents from
                 Abuse (GAO-02-448T);
         C       Health and Human Services - Status of Achieving Key Outcomes and Addressing
                 Major Management Challenges (GAO-01-7489);
         C       Long Term Care - Implications of Supreme Court’s Olmstead Decision are Still
                 Unfolding (GAO-01-1167T);
         C       Nursing Workforce - Recruitment and Retention of Nurses and Nurse Aides is a
                 Growing Concern(GAO-01-750T);
         C       Major Management Challenges and Program Risks (GAO-01-247);
         C       Nursing Homes - Success of Quality Initiatives Requires Sustained Federal and
                 State Commitment (GAO/T/HEHS-00-209);
         C       Nursing Homes - Sustained Efforts are Essential to Realize Potential of the Quality
                 Incentives (GAO/HEHS-00-197);
         C       Nursing Homes - Enhanced HCFA Oversight of State Programs Would Better
                 Ensure Quality Care (GAO/T/HEHS-00-27);
         C       Nursing Home Care - Enhanced HCFA Oversight of State Programs Would Better
                 Ensure Quality (GAO/HEHS-00-06); and
         C       Nursing Homes - Proposal to Enhance Oversight of Poorly Performing Homes has
                 Merit (GAO/HEHS-99-157).




                                                 __________
Nursing Home Medical Directors                         20                                         OEI-06-99-00300
10.      These organizations included:
         C       the American Medical Directors Association (AMDA), the principal professional
                 organization for medical directors,
         C	      the American Association of Homes and Services for the Aging (AAHSA) and the
                 American Health Care Association (AHCA), the primary nursing home industry
                 associations,
         C       the American Society of Consultant Pharmacists, 

         C       the National Association of Directors of Nursing Administration in Long Term Care,

         C       the National Citizens’ Coalition for Nursing Home Reform (NCCNHR),

         C       the Gerontological Society of America, and 

         C       the American Geriatrics Society. 


11.	     Centers for Medicare & Medicaid Studies, AAHSA, AHCA, and NCCNHR each provided input
         for sample state selection.

12.	     Medical directors are positioned in many environments, nursing homes being but one. The
         environment is a specific determinant of how that individual may perform his or her
         responsibilities. For example, a hospital’s medical director may be a physician working full-time
         for the hospital, allowing more ease of access to his/her services. The hospital-based nursing
         home may also have more ready access to physicians providing care to their patients in the
         hospital than the nursing homes may have in the availability of physicians willing to provide care to
         patients in nursing homes.

13.	     Initially, received surveys were reviewed to ensure that each was either completely answered or
         that specific questions were minimally completed (tables beginning each section and questions
         related to possible barriers). If neither was the case, the survey was considered a non-response.

14.	     In the survey instruments themselves, the phrase “required by the nursing home” is used to clarify
         expectations of medical directors. However, in reporting these findings, we will use the phrase
         “expected by the nursing home.” This will more easily allow differentiation between those
         functions “expected by the nursing home” versus functions “required” by federal regulation.

15.	     We attempted to match non-responding medical directors with the unique physician identifier
         number (UPIN) database, which maintains selected information on registered physicians,
         including their specialties and graduate date from medical school. Our match rate based on the
         non-responding medical directors was too low for making any valid determinations.

16.      42 CFR §483.25.

17.	     Residents' rights queried in this inspection included appropriate restraint usage; honoring
         end-of-life decisions; patients' rights to refuse medications; patients' utilization of kitchen; patients'
         self-selection of attending physicians; patients' involvement in care planning; patients having drug
         regimens free from unnecessary and inappropriately prescribed drugs; and existing policy meeting
         drug withdrawal guidelines.

18.      American Society of Consultant Pharmacists.

19.	     42 CFR §483.60(c)(1) requires a licensed pharmacist to review each patient's drug regimen at
         least monthly with more frequent reviews, as necessitated by the patient's condition and drug
         regimen.




                                                   __________
Nursing Home Medical Directors                           21                                            OEI-06-99-00300
20.      42 CFR §483.25(1)(1), 42 CFR §483.13(a).

21.      42 CFR §483.60(c)(2).

22.      Interpretative Guidelines, deficiency Tag F430.

23.      42 CFR §483.10(b)(4).

24.      42 CFR §483.10(d)(2)-(3).

25.	     The Patient Self Determination Act of 1990 requires all institutions receiving either Medicare or
         Medicaid funding to inform patients of their right to accept or refuse medical treatment through an
         advance directive. Further, the Balanced Budget Act of 1997 requires that such advance
         directives be placed in a prominent place within the individual's medical record.

26.	     Nursing facility performance is monitored through regulatory state and federal surveys, as well as
         ad hoc investigations addressing specific patient concerns, which may occur over time.

27.	     Food and Drug Administration, Center for Devices and Radiological Health, “FDA Safety Alert:
         Entrapment Hazards with Hospital Bed Side Rails,” August 1995. Available on internet at
         http://www.fda.gov/cdrh/bedrails.html. Parker, K, Miles SO, “Deaths Caused by Bed rails,”
         Journal of the American Geriatric Society, 1997; 45:797-802.

28.	     Myers, Wayne A., M.D., New Techniques in the Psychotherapy of Older Patients, 1991, and
         American Psychiatric Association, “Mental Health of the Elderly,” Public Information Internet
         site, Revision June 1992.

29.	     Nine percent of directors of nursing report that medical directors meet with nurse aides and that
         such meetings occur quarterly. Fully 70 percent of medical directors and 91 percent of directors
         of nursing report no meetings between medical directors and nurse aides, except as necessary.

30.	     W. Fowkes, D. Christenson, D. McKay, “An analysis of the use of the telephone in the
         management of patients in skilled nursing facilities,” Journal of American Geriatric Society
         1997; 45 (1):67-70. The result of this research is a recommendation that voice mail is a primary
         tool for managing the communication between nursing staff and physicians.

31.	     Levinson, Monte J., MD, CMD and Jonathan Musher, MD, CMD, “Current role of the medical
         director in community-based nursing facilities,” Clinics in Geriatric Medicine 1995 Aug; 11
         (3):343-358.




                                                __________
Nursing Home Medical Directors                        22                                        OEI-06-99-00300
                                                                                                              APPENDIX A




                                             SUMMARY OF PHYSICIAN-RELATED SURVEY
                                          AND CERTIFICATION NURSING HOME REGULATIONS (1)

           General Purpose of                       Code of           Centers
              Regulation(2)                         Federal              for              Intent of Regulation for Physicians
      Physicians should Ensure                    Regulations        Medicare &              (Attending or Medical Director)
                                                                      Medicaid
        for Patients and Facility                   (42 CFR
                                                                      Services
                                                    Citation)
                                                                     Deficiency
                                                                          Tags

              Resident Rights                                                     Lays the foundation for resident’s rights
 Right to a Dignified Existence                       483.10        150           requirements and ensures promotion of the
                                                                                  exercise of these rights by patients’.
 Right to be Informed                                               154
 (understandability related to the
 patient’s needs)
 Right to Refuse Treatment
                                                                    155
 Right to be Informed concerning
                                                                    156
 costs, legal rights, and name,
 speciality, and way of contacting the
 physician responsible for his/her care
 Right to Choose attending physician                                163
 Participate in Planning Care and
 Treatment (and changes)                              483.13        280
 Right to Self-Administer Drugs                                     176
 Right to be Free from Restraints                                   221, 222
 Right to be Free from Abuse                                        223
 Staff Treatment of Residents                                       224


                                                                                  Monitor physician participation in assessment
                                                                                  and care planning, particularly as related to the
         Resident Assessment and                                                  state-specified Resident Assessment Instrument,
                                               483.20(b)(1)-
        Comprehensive Care Plans,                                                 including both the Minimum Data Set and the
                                               483.20(b)(2)(i­      272-280,
     including Review and Frequency                                               utilization guidelines with Resident Assessment
                                               xiii),               285
                                                                                  Protocols. This includes ensuring that the
                                               483.20(b)(4)
                                                                                  assessment is accurate and reflects the patient’s
                                                                                  current status, to ensure each assessment is
                                                                                  prepared by those qualified to assess care based on
                                                                                  knowledge about the patient’s status and needs.

                                                                                  Monitor and ensure that patients receive, from
                                                                                  the facility, the necessary care and services to
                                                                                  attain or maintain their highest practical physical,
                                                                                  mental, and psychosocial well-being, in
                                                                                  accordance with the comprehensive assessment
                                                                                  and plan of care. This includes ensuring each
              Quality of Care
                                                      483.25        309-331       patient’s activities for daily living do not
                                                                                  deteriorate, unless such deterioration was
                                                                                  unavoidable. These treatments and services are
                                                                                  any provided by employees, contractors, or
                                                                                  volunteers, particularly those services related to
                                                                                  pain control, use of special communication
                                                                                  systems, vision and hearing, pressure sores,
                                                                                  urinary incontinence, range of motion, mental
                                                                                  and psychosocial functioning, special eating
                                                                                  requirements, accidents, nutrition, hydration, any
                                                                                  special needs, and unnecessary drugs.


                                                                 __________
Nursing Home Medical Directors                                       23                                                     OEI-06-99-00300
           General Purpose of                          Code of               Centers
              Regulation(2)                           Federal                   for                      Intent of Regulation for Physicians
        Physicians should Ensure                    Regulations             Medicare &                     (Attending or Medical Director)
                                                                             Medicaid
         for Patients and Facility                     (42 CFR
                                                                             Services
                                                       Citation)
                                                                            Deficiency
                                                                                 Tags

                                                                                                Ensure that each patient has a review at least
           Drug Regimen Review                           483.6                    428           monthly by a licenced pharmacist with the
                                                                                                understanding that the review may have to occur
                                                                                                more frequently, depending on the patient’s
                                                                                                condition and drugs prescribed.


                                                                                                Ensure that a facility infection-control program
             Infection Control                          483.65                    441           effectively investigates, controls, and prevents
                                                                                                infections.


                                                   Relates to 483.60         4.29502e+11        Encourages the facility to share pharmacists’ drug
                                                                                                regimen review reports with the medical director.
                                                                                                Implement resident care policies regarding
                                                                                                admissions, transfers and discharges, physician
                                                        483.75
                                                                                                privileges and practices, and responsibilities of
                                                       483.75(i)
                                                                                                non-physician health-care workers. Implement
                                                                                                resident care policies regarding accidents and
             Medical Director
                                                                                                incidents; ancillary services, such as laboratory,
                                                                                                radiology, and pharmacy; use of medications; use
                                                                                                and release of clinical information; and overall
                                                                                                quality of care. Ensure establishment and
                                                                                                implementation of all resident care policies, and
                                                                                                ensure that the nursing home is providing
                                                                                                appropriate care as required by monitoring and
                                                                                                implementing policies for care, and
                                                                                                oversight, supervision as related to overseeing the
                                                     483.75(i)(2)(i)                            overall clinical care of patients to ensure adequacy
                                                                                                of patient care services.
                                                                                                The medical director may be the designated
                                                       483.75(o)
                                                                                                physician serving on this committee.


                                                                                                Ensure accurate, complete, and organized clinical
             Clinical Records                          483.75(l)                  514           information concerning each patient and ready
                                                                                                access to such information. To ensure safety and
                                                                                                confidentiality of patient records.


                                                                                                Ensure the establishment of quality assurance
            Quality Assessment                         483.75(o)                  520           committees to identify and address quality issues
              and Assurance                                                                     and to implement quality improvement/corrective
                                                                                                action plans as necessary.


  (1)       These regulations, interpretive deficiency tags, and intent of the regulations are excerpted and interpreted for this study
            as being services for medical directors and attending physicians. Source: CMS’ State Operations Manual .
  (2)       Federally certified nursing homes, including skilled, are required to be in compliance with the requirements set at Title
            42, Code of Federal Regulations (CFR) Part 483, Subpart B, to receive payment under the Medicare and Medicaid
            programs. This certification requires a minimum of a life safety code survey and a standard survey conducted onsite at
            the facilities by federal or state survey teams.




                                                                       __________
Nursing Home Medical Directors                                              24                                                            OEI-06-99-00300
                                                                                                                            APPENDIX B




                                     SEVEN SAMPLE STATES - SELECTED INFORMATION(1), (2)

                   1999            1999 Nursing
                 Certified         Home Beds as          Certified
                NFs(3) as %         % of Total            Beds as          Av Beds          Medicare/              Medicaid                 Medicaid
                 of Total              State               % of
   States                                                                    per            Medicaid             Expenditures            Medical Vendor
                 Certified           Medicare/             Total           Nursing          Recipients           Institutional           Expenditures in
                   NFs               Medicaid            Certified          Home             in NFs                 LTC(1)                   NFs(1)
                                    Recipients(4)          Beds


 CA                1,390              132,962                7.4              96                 79,099       $2,530,105,425               $2,097,872,885
                   (8.1)               (59.5)


 ME                 125                 8,393                0.5              67                  6,182            $263,089,445              $181,220,851
                   (0.7)               (73.7)


 NY                 659              118,656(5)              6.6              180                96,114       $7,377,851,374               $4,906,873,789
                   (3.9)               (81.0)


 OH                1,007              104,817                5.8              104                62,048       $2,065,785,756               $1,569,723,823
                   (5.9)               (59.2)


 SD                 114                 7,938                0.4              70                  4,767            $126,339,319               $97,951,839
                   (0.7)               (60.1)


 TN                 352                39,275                2.2              112                29,418            $829,152,516              $619,886,256
                   (2.1)               (74.9)


 TX                1,254              125,904                7.0              100                71,064       $1,852,938,381               $1,270,530,921
                   (7.3)               (56.4)


 State
 Total            4,901               537,945               29.9              104               348,692       $15,045,262,21            $10,744,060,364
                                                                                                                                 6


 U.S.
 Total           17,083              1,807,285                                106             1,140,996       $40,799,455,37            $29,629,741,643
                                                                                                                                 4


 % U.S.
 Total            28.70%               29.77%                                98%              30.56%                36.88%                    36.26%


 (1)         Health Care Financing Review, Medicare and Medicaid Statistical Supplement, 1998, Pub. No. 03409, December
 1998.
 (2)       Across the States 2000, Profiles of Long Term Care Systems, Policy Institute, American Association of Retired Persons,
 Fourth Edition.
 (3)         Starting in fiscal year 1991, the distinction between intermediate and skilled nursing homes was eliminated; conditions
  of participation for both were unified with the services being renamed nursing facility (NF) services (e.g., nursing facilities now
  include both intermediate and skilled nursing homes).
 (4)        Percentage indicated followed in parentheses by state population in thousands.
 (5)        New York has no Medicare-only certified nursing homes.




                                                                     __________
Nursing Home Medical Directors                                               25                                                           OEI-06-99-00300
                                                                                                      APPENDIX C




                                         Medical Directors’ Self-reported Functions

                                                                         Nursing Home          Medical        Medical Director
                                                                         EXPECTS OR            Director            has
                           FUNCTIONS
                                                                          REQUIRES             SHOULD         AUTHORITY TO
                                                                      of Medical Director     PERFORM           PERFORM

                                                                            Percent of medical directors indicating “Yes”

 QUALITY ASSURANCE AND QUALITY IMPROVEMENT

 Review and revise existing medical and clinical policies                     90                 97                  95

 Encourage quality of care irrespective of the case mix                       88                 92                  90

 Review and analyze quality indicators for potential areas of                 86                 91                  90
 concern

 Quality improvement planning, implementing, and/or follow-up                 84                 93                  88

 Development of medical care policies and procedures                          81                 92                  89

 Confirm that patient problems identified by unit nurses are                  73                 83                  83
 adequately addressed

 Serve as patients’ medical advocate                                          64                 81                  78

 Monitor for adequate documentation of health care by any                     60                 77                  75
 provider

 Develop indicators for physician quality assurance in drug                   51                 74                  66
 prescribing

 Write and implement patient health maintenance policies                      51                 70                  67

 Monitor for appropriate patient care by nurses (RNs, LVNs,                   50                 68                  65
 LPNs, PNs)

 Monitor for appropriate patient care by nurse aides                          33                 46                  47

 Balance a patient’s needs with financial and administrative                  33                 41                  42
 constraints of the facility

 Develop performance indicators for attending physicians                      31                 60                  57

 INDIVIDUAL RESIDENT’S RIGHTS

 Ensure that patients’ end-of-life decisions are honored                      69                 80                  79

 Verify patients have a drug regimen free from inappropriately                69                 80                  75
 prescribed drugs

 Verify patients have a drug regimen free from unnecessary                    69                 75                  74
 drugs

 Verify appropriate medical response to drug regimen review                   68                 80                  75
 concerns

 Confirm appropriate restraint usage                                          65                 77                  79

 Verify existing policy meeting COBRA drug withdrawal                         65                 76                  74
 guidelines

 Ensure cognitive patients’ rights to refuse medications                      60                 76                  74

 Support patients’ direct involvement in care planning, if                    60                 70                  70
 mentally able




                                                             __________
Nursing Home Medical Directors                                   26                                              OEI-06-99-00300
                                                                           Nursing Home          Medical        Medical Director
                                                                           EXPECTS OR            Director            has
                            FUNCTIONS
                                                                            REQUIRES             SHOULD          AUTHORITY TO
                                                                        of Medical Director     PERFORM            PERFORM

                                                                              Percent of medical directors indicating “Yes”

                                                                                60                 64                  65
 Secure opportunity for patients’ self-selection of attending
 physicians

 Provide opportunity for patients to utilize the kitchen during                 10                  9                  12
 evening hours, if able

 PATIENT SERVICES

 Intervene with an attending physician when concerns are                        92                 97                  93
 raised about that physician’s patient care

 Review reports of consultant pharmacist’s drug regimen                         90                 93                  94
 reviews

 Provide ongoing medical advice and guidance to nurses                          86                 94                  89
 (RNs, LVNs, LPNs, PNs)

 Meet routinely with nurses to discuss patient care issues                      78                 88                  84

 Perform attending physician duties                                             72                 83                  91

 Mediate differences or inappropriate conduct between                           72                 86                  80
 providers

 Monitor the availability of attending physician services                       72                 85                  84

 Participate in the planning of patient care by ensuring the                    69                 83                  78
 appropriateness of services and treatments

 Monitor for appropriate patient care by attending physicians                   68                 85                  79

 Monitor for appropriate consultant pharmacist performance                      66                 84                  74

 Monitor the availability of any consultant services                            64                 74                  72

 Serve as member of interdisciplinary team and participate in                   61                 66                  78
 most or all meetings

 Interact directly with attending physicians concerning patient
                61                 78                  76
 care provided by nurse practitioners and physician

 assistants


 Verify qualifications of attending physicians                                  54                 74                  62

 Ensure appropriate care of patients by nurse practitioners                     54                 73                  65
 and physician assistants

 Perform patient rounds, which include direct contact with                      51                 62                  73
 patients

 Actively treat or supervise treatment of patients’ acute                       50                 54                  74
 illnesses

 Monitor patient charts for appropriate attending physician                     49                 70                  63
 documentation

 Interact directly with patients’ families concerning patients’                 48                 55                  69
 care needs

 Monitor patient care provided by nurse practitioners and                       50                 67                  65
 physician assistants

 Verify qualifications of any consultants                                       43                 68                  54

 Perform comprehensive patient assessments                                      40                 48                  63

 Refer patients for nursing home admission                                      31                 42                  57

 Ensure that, upon admission, patient’s prior medical records                   28                 39                  46
 and advance directives are available


                                                             __________
Nursing Home Medical Directors                                     27                                              OEI-06-99-00300
                                                                          Nursing Home          Medical        Medical Director
                                                                          EXPECTS OR            Director            has
                            FUNCTIONS
                                                                           REQUIRES             SHOULD          AUTHORITY TO
                                                                       of Medical Director     PERFORM            PERFORM

                                                                             Percent of medical directors indicating “Yes”

 Lead or chair the development of medical interdisciplinary                    27                 47                  47
 health-care plans for all patients

 Meet routinely with nurse aides to discuss patient care                       24                 40                  48
 issues

 Ensure sufficient and appropriate supplies per patient needs                  17                 25                  21

 Ensure sufficient staffing as required to meet patients’ needs                 9                 27                  10

 Ensure sufficient nurse coverage (RNs, LVNs, LPNs, and                         3                 13                  3
 PNs) per shift

 Ensure sufficient nurse aide coverage per shift                                3                 11                  4

 ADMINISTRATION AND MANAGEMENT

 Provide medical expertise for facility when necessary to                      94                 96                  96
 respond to regulatory agency survey concerns

 Liaison between medical staff, nursing staff, and                             84                 88                  89
 administration

 Keep current with regulatory and medical treatment changes                    83                 92                  86

 Promote employee health                                                       72                 78                  75

 Liaison between patients/their families and the medical staff,                49                 62                  68
 nursing staff, and administration

 Develop and strengthen community relations                                    46                 52                  54

 Recruit attending physicians                                                  27                 40                  42

 Participation in facility budget process                                       7                 18                  12

 TRAINING AND EDUCATION

 Train or coordinate training for nursing staff to provide                     54                 68                  70
 physicians appropriate and necessary patient medical
 information

 Teach nursing staff, including aides, that certain drugs are                  53                 71                  70
 inappropriate for elderly patients

 Teach attending physicians about state and federal                            38                 57                  56
 regulations

 Educate health-care staff on new policies and procedures                      37                 51                  55

 Promote on-going training of medical and non-medical staff                    36                 45                  46
 related to their functional requirements

 Provide training on health-care ethics                                        34                 50                  59

 Teach nursing staff, including aides, about state and federal                 28                 38                  42
 regulations

 Teach the aging process to direct care staff, other than                      25                 42                  51
 nursing staff (e.g., social worker, dietitian, etc.)

 Provide training to community regarding nursing home                          22                 35                  44
 services, possible care choices, and patient’s rights

 ENSURING A SAFE PHYSICAL ENVIRONMENT

 Promote a hazard-free resident environment                                    32                 46                  40

 Ensure occurrence of emergency evacuation and safety                          21                 26                  29
 drills

 Promote noise control                                                         18                 33                  28


                                                             __________
Nursing Home Medical Directors                                    28                                              OEI-06-99-00300
                                                                           Nursing Home          Medical        Medical Director
                                                                           EXPECTS OR            Director            has
                            FUNCTIONS
                                                                            REQUIRES             SHOULD          AUTHORITY TO
                                                                        of Medical Director     PERFORM            PERFORM

                                                                              Percent of medical directors indicating “Yes”

                                                                                12                 22                  26
 Verify facility’s sanitary storage, preparation, and service of
 food

 Confirm facility’s adequate and comfortable lighting levels for                11                 22                  25
 patients




                                                             __________
Nursing Home Medical Directors                                     29                                              OEI-06-99-00300
                         ACKNOWLEDGMENTS


The OEI Region VI office prepared this report under the direction of Judith V. Tyler,
Regional Inspector General. Principal OEI staff included:


                  Dallas                                                      Headquarters

         Leah K. Bostick, Project Leader                             Sandy Khoury, Program Analyst
         Marnette Dhooghe, Program Analyst
         Clark Thomas, Program Analyst
         Scott Whitaker, Program Analyst
         Nancy Watts, Administrative Officer
         Lisa White, Administrative Officer




                             For information or copies of this report, please contact
                                       the Office of Inspector General’s
                                     Public Affairs office at (202)619-1343


              Reports are also available on the World Wide Web at our home page address:

                                               http://oig.hhs.gov/



                                                 __________
Nursing Home Medical Directors                       30                                      OEI-06-99-00300
